<html>
<title> - THE U.S. ANTARCTIC PROGRAM: ACHIEVING FISCAL AND LOGISTICAL EFFICIENCY WHILE SUPPORTING SOUND SCIENCE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                      THE U.S. ANTARCTIC PROGRAM:

              ACHIEVING FISCAL AND LOGISTICAL EFFICIENCY 

                     WHILE SUPPORTING SOUND SCIENCE
=======================================================================



                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                      THURSDAY, NOVEMBER 15, 2012

                               __________

                           Serial No. 112-106

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
77-036                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                            C O N T E N T S

                      Thursday, November 15, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    16
    Written Statement............................................    17

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    17
    Written Statement............................................    22

                               Witnesses:

Mr. Norman R. Augustine, Chair, U.S. Antarctic Program Blue 
  Ribbon Panel
    Oral Statement...............................................    20
    Written Statement............................................    23

The Honorable Subra Suresh, Director, National Science Foundation
    Oral Statement...............................................    30
    Written Statement............................................    28

General Duncan J. McNabb, USAF (Ret), Member, U.S. Antarctic 
  Program Blue Ribbon Panel
    Oral Statement...............................................    36
    Written Statement............................................    38

Dr. Warren M. Zapol, M.D., Chair, Committee on Future Science 
  Opportunities in Antarctica and the Southern Ocean, National 
  Research Council
    Oral Statement...............................................    41
    Written Statement............................................    44

             Appendix I: Answers to Post-Hearing Questions

Mr. Norman R. Augustine, Chair, U.S. Antarctic Program Blue 
  Ribbon Panel...................................................    68

The Honorable Subra Suresh, Director, National Science Foundation    70

General Duncan J. McNabb, USAF (Ret), Member, U.S. Antarctic 
  Program Blue Ribbon Panel......................................    73

Dr. Warren M. Zapol, M.D., Chair, Committee on Future Science 
  Opportunities in Antarctica and the Southern Ocean, National 
  Research Council...............................................    75


                      THE U.S. ANTARCTIC PROGRAM:

                    ACHIEVING FISCAL AND LOGISTICAL

               EFFICIENCY WHILE SUPPORTING SOUND SCIENCE


                              ----------                              


                      THURSDAY, NOVEMBER 15, 2012

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:03 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph Hall 
[Chairman of the Committee] presiding.


[GRAPHIC] [TIFF OMITTED] 77036.001

[GRAPHIC] [TIFF OMITTED] 77036.002

[GRAPHIC] [TIFF OMITTED] 77036.003

[GRAPHIC] [TIFF OMITTED] 77036.004

[GRAPHIC] [TIFF OMITTED] 77036.005

[GRAPHIC] [TIFF OMITTED] 77036.006

[GRAPHIC] [TIFF OMITTED] 77036.007

[GRAPHIC] [TIFF OMITTED] 77036.008

[GRAPHIC] [TIFF OMITTED] 77036.009

[GRAPHIC] [TIFF OMITTED] 77036.010

[GRAPHIC] [TIFF OMITTED] 77036.011

[GRAPHIC] [TIFF OMITTED] 77036.012

[GRAPHIC] [TIFF OMITTED] 77036.013

[GRAPHIC] [TIFF OMITTED] 77036.014

    Chairman Hall. The Committee on Science, Space, and 
Technology will come to order, and we say good morning and 
welcome to today's hearing: ``The U.S. Antarctic Program: 
Achieving Fiscal and Logistical Efficiency While Supporting 
Sound Science.''
    In front of you are packets containing the written 
testimony and the biographies and the Truth in Testimony 
disclosures for today's witnesses. At this time I guess I will 
recognize myself for five minutes for the opening statement.
    The first United States presence in Antarctica dates way 
back to 1830. Our support of explorers and scientists on that 
continent has yielded and continues to yield valuable research 
that not only affects our daily lives, but absolutely can't be 
done in any other place on earth. As much as we currently know 
about Antarctica, there remains much to be learned. It is hard 
to believe that it has only been slightly more than 100 years 
since humans arrived at the South Pole, and now we are 
performing science there year-round at the U.S. South Pole 
Station, in addition to the work being done at McMurdo and 
Palmer stations, at remote camps across the continent, and on 
various research vessels in the Southern Ocean.
    We are fortunate to have the National Science Foundation 
capably managing the U.S. Antarctic Program for the entire 
United States and we are pleased that it, in consultation with 
the White House Office of Science and Technology Policy, 
initiated two activities to review the program: first, a 
National Academies report to focus on the science needed for 
the next two decades, and second, a Blue Ribbon Panel report to 
focus on the logistics required to support that science.
    The purpose of the hearing today is to take a look at the 
recommendations of the Blue Ribbon Panel's report, ``More and 
Better Science in Antarctica through Increased Logistical 
Effectiveness,'' is the title of it, and the benefits, costs 
and savings associated with those recommendations.
    Personally, I have not had the pleasure of visiting 
Antarctica and don't expect that I ever will have an 
opportunity that I accept--no CODELs--and I don't know anybody 
that has been there that wants to go back. I personally have 
not had the privilege of visiting Antarctica as many of my 
colleagues have, but I have learned from them and from others 
of the immense value and unique opportunities that that 
continent holds for scientific discovery. It is very important 
to us. I also recognize the important geopolitical reasons to 
maintain a U.S. presence there and appreciate the cooperation 
that must take place not only between relevant U.S. agencies, 
but also between our international friends and partners. 
Unfortunately, the magnitude of the logistics to support these 
activities is enormous and overwhelmingly dominates the budget 
for Antarctic activities. Therefore, the Blue Ribbon Panel's 
report recommendations are very welcome.
    The Blue Ribbon Panel report provides ten broad 
overreaching recommendations for logistical effectiveness, and 
also provides a number of specific implementing actions 
categorized as either, one, essential for safety and health; or 
number two, readily implementable; and significant investment 
and large payoff.
    I want to thank Norm Augustine, General McNabb, Bart 
Gordon, the former Chairman of this Committee, a wonderful guy 
and a great job he did for the years he was here, and all of 
the other Blue Ribbon panelists for the time and effort they 
spent on developing this report, and I look forward to 
discussing the feasibility of implementing their 
recommendations, particularly during this time of budgetary 
constraint, with all of the witnesses and I thank all of you 
for taking time out of your busy schedules, the time it took 
for you to get ready, the time it took for you to get here, the 
time you are going to spend with us and the time you are going 
to have going back. You are givers and not takers, and we 
appreciate every one of you.
    [The prepared statement of Mr. Hall follows:]
               Prepared Statement of Chairman Ralph Hall
    The first United States presence in Antarctica dates back to 1830. 
Our support of explorers and scientists on that continent has yielded 
and continues to yield valuable research that not only affects our 
daily lives, but cannot be done in any other place on earth. As much as 
we currently know about Antarctica, there remains much to be learned. 
It is hard to believe that it has only been slightly more than 100 
years since humans arrived at the South Pole, and now we are performing 
science there year-round at the U.S. South Pole Station, in addition to 
the work being done at McMurdo and Palmer stations, at remote camps 
across the continent, and on various research vessels in the Southern 
Ocean.
    We are fortunate to have the National Science Foundation capably 
managing the U.S. Antarctic Program for the entire United States and 
are pleased that it, in consultation with the White House Office of 
Science and Technology Policy, initiated two activities to review the 
Program: (1) a National Academies report to focus on the science needs 
for the next two decades; and (2) a Blue Ribbon Panel report to focus 
on the logistics required to support that science. The purpose of the 
hearing today is to take a look at the recommendations of the Blue 
Ribbon Panel's report, More and Better Science in Antarctica through 
Increased Logistical Effectiveness, and the benefits, costs and savings 
associated with those recommendations.
    I, personally, have not had the pleasure of visiting Antarctica as 
many of my colleagues have, but I have learned from them and from 
others of the immense value and unique opportunities that continent 
holds for scientific discovery. I also recognize the important 
geopolitical reasons to maintain a U.S. presence there and appreciate 
the cooperation that must take place not only between relevant U.S. 
agencies, but also between our international friends and partners. 
Unfortunately, the magnitude of the logistics to support these 
activities is enormous and overwhelmingly dominates the budget for 
Antarctic activities. Therefore, the Blue Ribbon Panel's report 
recommendations are welcome.
    The Blue Ribbon Panel report provides ten broad overarching 
recommendations for logistical effectiveness, and also provides a 
number of specific implementing actions categorized as either (1) 
essential for safety and health; (2) readily implementable; and (3) 
significant investment and large payoff.
    I want to thank Norm Augustine; General McNabb; Bart Gordon, the 
former Chairman of this Committee; and all of the other Blue Ribbon 
panelists for the time and effort they spent on developing this report, 
and I look forward to discussing the feasibility of implementing their 
recommendations, particularly during this time of budgetary constraint, 
with all of the witnesses.

    Chairman Hall. I yield back my time. I recognize for five 
minutes an opening statement, Ms. Johnson. Ms. Johnson, you 
present your opening statement and take as much time as you 
need.
    Ms. Johnson. Thank you very much, Mr. Chairman, for holding 
this hearing and welcome to our esteemed panel of witnesses. 
The United States presence in Antarctica is critically 
important both strategically and scientifically. With two 
expert reports on both the science and logistics of our 
Antarctic research program recently completed, and a new 
contractor in place, we are at an important juncture in the 53-
year-old U.S. Antarctic Program.
    So I am pleased that we are having this hearing now to 
begin to review the many challenges and opportunities that lie 
ahead. However, our ability to address them will inevitably 
depend on what decisions we make about the larger federal 
budget in the coming months. I hope that we will also keep 
Antarctica on our agenda in the next Congress as the budget 
picture comes into better focus.
    By all accounts, the National Science Foundation and its 
agency partners have done an extraordinary job in building and 
maintaining a productive, safe and efficient U.S. research 
program across the Antarctic continent. They have done so while 
minimizing our environmental footprint in Antarctica, hopefully 
giving all of us back in the United States some lessons on how 
we can take easy steps to reduce our energy consumption and 
reduce waste.
    Our efficient investment in infrastructure and operations 
enables cutting-edge science across many fields supported by 
multiple federal agencies. Most of us probably didn't know that 
there is an active volcano in Antarctica being studied by the 
NSF and the USGS scientists, and that NASA conducts some 
research down there because the harsh Antarctic environment is 
a good preliminary test bed for the harsh conditions in space. 
Many of our scientists are also conducting research on land and 
at sea to help us better understand and predict global change, 
global climate change, and NOAA is making critical atmospheric 
measurements at the South Pole.
    But the more efficient and safer we are in our logistical 
support of these activities, the more opportunity we will have 
to expand and strengthen the science we do. So I commend Dr. 
Suresh and OSTP Director Dr. Holdren on their decision to 
request a two-tier review of the U.S.Antarctic Program, first 
to look at the science priorities, then to carry out an A to Z 
review of the infrastructure and logistics. This is the very 
definition of good government.
    I look forward to hearing from Mr. Augustine and General 
McNabb about the Blue Ribbon Panel's recommendations and any 
specific advice they have for us on how the Science Committee 
can be helpful. I would also like to hear from witnesses as to 
whether the scientific community has expressed any concerns 
with respect to the Blue Ribbon Panel's recommendations, and 
how the agency might best work with the community to minimize 
the short-term disruption to science.
    Last, but of course not least, I look forward to hearing 
about the scientific priorities for the U.S. Antarctic Program 
going forward and how and why we all benefit from the science 
being carried out so far away from our shores.
    On another note, with this possibly being our last 
Committee hearing of the year, I want to take this opportunity 
to thank my friend and colleague Ralph Hall for his leadership 
of this Committee.
    And with that, I yield back.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Ranking Member Eddie Bernice Johnson
    Thank you, Chairman Hall, for holding this hearing and welcome to 
our esteemed panel of witnesses. The United States presence in 
Antarctica is critically important both strategically and 
scientifically. With two expert reports on both the science and 
logistics of our Antarctic research program recently completed, and a 
new contractor in place, we are at an important juncture in the 53-year 
old US Antarctic Program.
    So I am pleased that we are having this hearing now to begin to 
review the many challenges and opportunities that lie ahead. However 
our ability to address them will inevitably depend on what decisions we 
make about the larger federal budget in the coming months. I hope that 
we will also keep Antarctica on our agenda in the next Congress as the 
budget picture comes into better focus.
    By all accounts, the National Science Foundation and its agency 
partners have done an extraordinary job in building and maintaining a 
productive, safe, and efficient U.S. research program across the 
Antarctic continent. They have done so while minimizing our 
environmental footprint in Antarctica, hopefully giving all of us back 
in the U.S. some lessons on how we can take easy steps to reduce our 
energy consumption and reduce waste.
    Our efficient investment in infrastructure and operations enables 
cutting edge science across many fields supported by multiple federal 
agencies. Most of us probably didn't know that there is an active 
volcano in Antarctica being studied by NSF and USGS scientists, and 
that NASA conducts some research down there because the harsh Antarctic 
environment is a good preliminary testbed for the harsh conditions in 
space. Many of our scientists are also conducting research on land and 
at sea to help us better understand and predict global climate change, 
and NOAA is making critical atmospheric measurements at the South Pole.
    But the more efficient and safer we are in our logistical support 
of these activities, the more opportunity we will have to expand and 
strengthen the science we do. So I commend Dr. Suresh and OSTP Director 
Dr. Holdren on their decision to request a two-tier review of the US 
Antarctic Program, first to look at the science priorities, then to 
carry out an A to Z review of the infrastructure and logistics.

    This is the very definition of good government.

    I look forward to hearing from Mr. Augustine and General McNabb 
about the Blue Ribbon Panel's recommendations, and any specific advice 
they have for us on how the Science Committee can be helpful. I'd also 
like to hear from witnesses as to whether the scientific community has 
expressed any concerns with respect to the Blue Ribbon's Panel's 
recommendations, and how the agency might best work with the community 
to minimize the short-term disruption to the science.
    Last, but of course not least, I look forward to hearing about the 
scientific priorities for the US Antarctic Program going forward and 
how and why we all benefit from the science being carried out so far 
away from our own shores.
    On another note, with this possibly being our last full committee 
hearing of the year, I want to take this opportunity to thank my friend 
and colleague Ralph Hall for his leadership of this committee.

    With that I yield back.

    Chairman Hall. If you want to expand on that, I will give 
you some more time. Thank you, Ms. Johnson.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our panel of 
witnesses. Our first witness is one who has been here many 
times before, Norman R. Augustine, Chair of the U.S. Antarctic 
Program Blue Ribbon Panel, and a good friend of this Committee, 
and good friend of this Congress and a good friend of this 
country. His name is attached to a number of reports with which 
we are familiar and we are lucky to have the benefit of his 
leadership. Mr. Augustine spent his career working in both the 
private and public sectors including the Department of Defense. 
He served as either president or CEO and chairman of the board 
for Martin Marietta for more than 20 years before becoming 
president of the newly formed Lockheed Martin in 1995. He 
retired as chairman and CEO of Lockheed Martin in 1997. Mr. 
Augustine holds 29 honorary degrees and has been presented the 
National Medal of Technology by the President of the United 
States and received the Joint Chiefs of Staff Distinguished 
Public Service Award.
    Our second witness is Dr. Subra Suresh, Director of the 
National Science Foundation. Prior to assuming his current role 
in 2010, he served as the Dean of the School of Engineering and 
the Vannevar Bush Professor of Engineering at the Massachusetts 
Institute of Technology, MIT.
    Our next witness is General Duncan McNabb, United States 
Air Force, retired, a member of the U.S. Antarctic Program Blue 
Ribbon Panel and a former commander, United States 
Transportation Command. U.S. Transcom is the single manager for 
global air, land and sea transportation for the Department of 
Defense. In his distinguished career of more than 37 years, 
General McNabb also served in a variety of leadership roles 
including U.S. Air Force Deputy Chief of Staff for Planning and 
Programming, Director for Logistics on the Joint Staff, and 
Vice Chief of Staff for the Air Force, and it is not written 
here for me to say but he also lives in Texas. Ensign Gay, who 
was the sole survivor of the Battle of Midway, as many of you 
know and remember, was a Texan, and he always in all his 
speeches, I never heard him make a speech that he didn't say 
this: he said ``Never ask anybody if they are from Texas, 
because if they are, they will tell you, and if they are not, 
there is no reason to embarrass them.''
    Our final witness is Dr. Warren Zapol, Chair of the 
National Research Council's Committee on Future Science 
Opportunities in Antarctica and the Southern Ocean. Dr. Zapol 
is an anesthesiologist and is current Director of the 
Massachusetts General Hospital Anesthesia Center for Critical 
Care Research. He is also Reginald Jenney Professor of 
Anesthesia at Harvard Medical School.
    As our witnesses should know, spoken testimony is limited 
to five minutes after which the Members of this Committee will 
have five minutes each to ask you questions, and you are not 
relegated to five minutes, you are not held to that. We are too 
grateful to you for being here. We will work with you on that. 
Just do your best.
    I now recognize our first witness Mr. Augustine for five 
minutes.

             STATEMENT OF MR. NORMAN R. AUGUSTINE,

        CHAIR, U.S. ANTARCTIC PROGRAM BLUE RIBBON PANEL

    Mr. Augustine. Well, thank you, Chairman Hall and Ranking 
Member Johnson and Members of the Committee. I am pleased to 
have the opportunity to represent my 11 colleagues on this 
study here at this hearing, and I particularly appreciate your 
inviting General McNabb, my colleague and friend on the 
committee. I have submitted a written statement, Mr. Chairman.
    As you all know, the purpose of the U.S. presence in 
Antarctica is really twofold. One is to perform science, the 
other is to provide a U.S. presence on the continent and in the 
Southern Ocean. The role of our committee, however, was, as the 
chairman said, to focus on logistics and support, both in 
Antarctica and the Southern Ocean. It is a challenge to provide 
logistical support there, as you can imagine. At the Pole, for 
example, you are on top of 9,000 feet of ice, 11,000-foot 
pressure altitude, strong winds, darkness for much of the year, 
and temperatures in that general area have been measured as far 
as 127 degrees below zero Fahrenheit. But it happens to be a 
superb place to perform certain kinds of science, and the other 
witnesses, I think, will describe that later so I will turn to 
logistics.
    The logistical pipeline is rather demanding. It is about 
11,000 miles long, going from Port Hueneme in California to 
Christchurch, New Zealand, to McMurdo Base on the Ross Sea and 
then another 800 miles to the Pole if that is where you are 
going. It is the view of our committee that the NSF over the 
years, today as well, has done a truly remarkable job of 
managing such a complex, unforgiving operation. The perhaps 
prime example of that is the building of the new South Pole 
Station, which this Committee approved a few years ago. It was 
a remarkable feat and was brought in basically on cost and on 
schedule, very close.
    Science is just the tip of the iceberg, quite literally, in 
terms of our activity in Antarctica. As the Chairman alluded 
to, it happens that about 85 percent of the people days that 
are spent on the continent and in the Southern Ocean are 
associated with logistics support as opposed to the science 
itself, and about 90 percent--excuse me--about 80 percent of 
the budget is attributed to logistical support. A little 
arithmetic there will suggest that if the logistics costs would 
go up by just 13 percent, you would have to cut the science in 
half for a constant overall budget. On the other hand, this 
means there is an enormous opportunity if we can reduce the 
cost of the logistics.
    We found the logistics and facilities in rather poor 
repair, particularly at McMurdo and to a lesser extent at 
Palmer. For example, we entered a warehouse where there were 
certain areas you couldn't drive forklifts because they fall 
through the floor. We found them storing dry food in a facility 
that one of our members, who is the former Vice President of 
Proctor and Gamble for Global Supply, he said he wouldn't store 
soap in that building. We saw rooms designed for two people 
that five people were living in, of course posing a 
considerable health hazard. Inventories are often stored 
outdoors. The wind covers them with snow, and when people need 
supplies they have to dig through the snow banks to try to find 
them. The infirmary was described to us at McMurdo by the 
physician there as being of 1960s vintage. The dock at Palmer 
Station has an underwater pinnacle of rock that makes it 
extremely hazardous to dock ships there. Many ships can't dock 
there because of that.
    We think the root cause of this has to do with the lack of 
a capital budget plan for the U.S. program in Antarctica, and 
of course, that is not unique to the NSF. By having such a 
plan, it would be possible to greatly increase the efficiency 
in Antarctica.
    We have proposed in our 224-page book a number of things 
that could be done to improve the situation, and let me 
emphasize that we are acutely aware of the budgetary problems 
that face our Nation and face your Committee. We have proposed 
a four-step plan that could be used to fund the program we have 
proposed. The first step is to increase the U.S. Antarctic 
Program funding by six percent for four years; correspondingly, 
to shift six percent of the science budget for the next four 
years to rebuilding the logistics system; to apply the savings 
from the first four years of the changes we propose to 
improving the logistics system; and, finally, by reducing the 
cost of contract activities by about 20 percent, which we 
believe is possible.
    I should say this does not address the icebreaker issue, 
which transcends the NSF's ability to solve what is of the 
utmost importance and hopefully this Committee will be able to 
address that.
    With that, Mr. Chairman, I will conclude my remarks and I 
would be happy to answer questions at the appropriate time.
    [The prepared statement of Mr. Augustine follows:]
    [GRAPHIC] [TIFF OMITTED] 77036.015
    
    [GRAPHIC] [TIFF OMITTED] 77036.016
    
    [GRAPHIC] [TIFF OMITTED] 77036.017
    
    [GRAPHIC] [TIFF OMITTED] 77036.018
    
    [GRAPHIC] [TIFF OMITTED] 77036.019
    
    [GRAPHIC] [TIFF OMITTED] 77036.020
    
    [GRAPHIC] [TIFF OMITTED] 77036.021
    

    Chairman Hall. And I thank you.
    I now recognize our second witness, Dr. Suresh, for five 
minutes.

            STATEMENT OF THE HONORABLE SUBRA SURESH,

             DIRECTOR, NATIONAL SCIENCE FOUNDATION

    Mr. Suresh. Chairman Hall, Ranking Member Johnson and 
distinguished Members of the Committee, I am pleased to appear 
before you today to discuss the results of the Blue Ribbon 
Panel review of the U.S. Antarctic Program, or commonly 
referred to as USAP.
    First, let me thank my colleague and good friend, Mr. Norm 
Augustine, for leading this very immense undertaking. I also 
acknowledge the distinguished panel for their very insightful 
analysis of the challenges we face in supporting the research 
in Antarctica. I also thank Dr. John Holdren of the Office of 
Science and Technology Policy for collaborating with us to form 
and support the panel. Lastly, I acknowledge the important 
stage-setting provided by the National Research Council's 
report on ``Future Science Opportunities in Antarctica and the 
Southern Ocean.''
    Mr. Chairman, the National Science Foundation is proud of 
its presidentially directed role in leading USAP on behalf of 
the U.S. government. We must continuously address and 
anticipate the complex logistics needed to implement frontier 
science and engineering research in this remote and very harsh 
environment.
    Antarctica serves as an extraordinary laboratory and 
important bellwether for virtually all areas of science. In my 
written testimony, I highlighted three significant discoveries 
resulting from research in this region: the identification of 
the ozone hole, which resulted in the worldwide ban of 
chlorofluorocarbons; the discovery of antifreeze proteins that 
have implications for tissue preservation for medical 
transplants, hypothermia treatment and lengthening the shelf 
life of frozen foods; and the recent discovery just a few weeks 
ago of the Phoenix galaxy cluster that generates 700 stars a 
year, the highest rate ever documented.
    The U.S. Antarctic Program also supports the missions of 
our sister agencies including NASA's long-duration scientific 
ballooning and meteorite collection programs and NOAA's key 
observations for long-term atmospheric monitoring. NSF also 
effectively partners with other agencies, both in the United 
States and in Europe, for the data acquisition system in the 
Antarctic that is vital to the weather prediction systems upon 
which we all rely.
    USAP also implements U.S. policy and the interests of the 
State Department through an active and influential presence in 
Antarctica. The U.S. governing role is paramount in the 
Antarctic treaty system.
    We have reviewed USAP roughly once a decade since its 
creation. These reviews help determine whether the program is 
effectively structured, appropriately balanced and routinely 
aligned with national goals. Specifically, this Blue Ribbon 
Panel review focused on ensuring that the logistics and 
infrastructure were in place to support the cutting-edge 
research that can only be done and best be done in this remote 
environment. Given the austere budget environment we are in, 
the panel's review was designed to identify opportunities for 
efficiencies and to inform and prioritize future budget 
requests for logistics and infrastructure.
    The panel laid out a realistic blueprint for securing and 
improving world-class research in Antarctica. They also 
provided a warning that resonated with me as an engineer. USAP 
is currently operating under the threat of multiple single 
points of failure. Immediately after the release of the report 
this past July, I chartered a Tiger Team of senior NSF managers 
to guide development of a point-by-point response that includes 
a rolling five-year long-range investment plan, an integrated 
master schedule to implement recommendations contained in the 
report. The Tiger Team members agree with the majority of the 
recommendations, although as Mr. Augustine pointed out, not all 
of them can be implemented solely by NSF. For example, ensuring 
icebreaker capabilities for the United States requires action 
on the part of the U.S. Coast Guard and other parts of the 
federal government. The balance of the recommendations can be 
and are being acted on. We will immediately address the 
critical recommendations related to safety. We are also 
determining the feasibility and full cost implications of 
others.
    I have also asked the Tiger Team to develop approaches for 
additional improvements through cross-foundational 
fertilization and external engagement. For example, they are 
exploring issuing grand challenges in areas that are related to 
energy utilization and engineering.
    Along these same lines, we fully expect Lockheed Martin, 
our current Antarctic support contractor, to implement some of 
the cost-saving ideas they included in their proposal. Our 
Department of Defense partners also continue to recommend ideas 
for operating more efficiently. We expect to provide the 
National Science Board with a point-by-point response to the 
Blue Ribbon Panel recommendations at its meeting in December. I 
would like to acknowledge the chair of the National Science 
Board, Dr. Dan Arvizu, who graciously joined us here this 
morning. We would be happy to provide a copy of that to the 
committee.
    Mr. Chairman, we appreciate this opportunity to discuss our 
initial response to the Blue Ribbon Panel report and look 
forward to continuing to support cutting-edge research in 
Antarctica. Thank you.
    [The prepared statement of Mr. Suresh follows:]
    [GRAPHIC] [TIFF OMITTED] 77036.022
    
    [GRAPHIC] [TIFF OMITTED] 77036.023
    
    [GRAPHIC] [TIFF OMITTED] 77036.024
    
    [GRAPHIC] [TIFF OMITTED] 77036.025
    

    Chairman Hall. Thank you for a good presentation.
    Now I recognize our third witness, General McNabb, for five 
minutes.

       STATEMENT OF GENERAL DUNCAN J. MCNABB, USAF (RET),

        MEMBER, U.S. ANTARCTIC PROGRAM BLUE RIBBON PANEL

    General McNabb. Chairman Hall, Ranking Member Johnson and 
Members of the Committee, it is my honor to be with you today 
to testify on the Blue Ribbon Panel's report. It was a true 
privilege to join our chairman, Norm Augustine, and the other 
Blue Ribbon panel members to look at how we might improve 
logistics in support of the National Science Foundation and our 
science community. I am also delighted to be joined today by 
Norm Augustine, Dr. Subra Suresh and Dr. Zapol.
    As a former Commander of the U.S. Air Force Air Mobility 
Command and later as commander of the United States 
Transportation Command, I was directly involved in supporting 
the National Science Foundation and the Antarctic Program. As 
you can well imagine, the movement of people, equipment and 
supplies to Antarctica is one of our most demanding missions. 
It requires special crews and special capabilities and we take 
tremendous pride in it.
    Having had visited the McMurdo area and the South Pole as a 
military commander and then later as a Blue Ribbon Panel 
member--so Chairman, I did go twice and really had a great time 
both times--I need to say first how impressed I am with the 
NSF, the science community and the people who support this 
mission day in and day out. It is not too strong a word that 
they perform logistics miracles. They handle unique challenges 
every day to make this work safely and they do an incredible 
job, given the challenges they face. That said, there are 
always opportunities to improve and hopefully the Blue Ribbon 
Panel's effort can offer some strategic insights into how to 
take an already excellent operation to an even higher level.
    I also want to thank this Committee for your continuous 
support of the mission. It has made and will continue to make a 
huge difference in improving science, enhancing safety, 
optimizing logistics operations and reducing cost. My and my 
other panel members' thoughts and suggestions are captured in 
the report but I would like to highlight a couple of points.
    First of all is the importance of McMurdo. Currently, there 
is no other location in the Antarctic which offers the 
advantages of the McMurdo area; a deepwater port with 
relatively easy access in the summer months using an 
icebreaker; a wheel capable airfield, capable of handling large 
aircraft within 20 miles of this deepwater port, and within 
effective LC-130 range of the South Pole; well-developed 
infrastructure including storage for 11.5 million gallons of 
fuel; ideal location to support NASA's satellite links and 
long-duration balloon program, and NOAA's and DOD's Polar Space 
Programs; and access to the 175,000-square-mile ice shelf which 
allows more efficient traverse operations to much of the 
Antarctic. With recommended increases in the C-17 operations 
and more multimodal operations, McMurdo's criticality as the 
principal resupply center for the NSF will even grow. For all 
these reasons, the Blue Ribbon Panel strongly recommends 
McMurdo to continue to be the major support base for the NSF 
Antarctic Program and it needs to be rightsized and modernized 
as outlined in the report.
    Second is the importance of using an enterprise 
transportation approach to the Antarctic region. Given the 
challenges of providing logistic support to this austere area, 
optimizing transportation's assets is essential. With new 
technology, capabilities and concepts of operation, there are 
excellent opportunities to significantly improve air, land and 
sea options. However, the most dramatic improvement will be 
realized through the use of a true enterprise approach, taking 
best advantage of all transportation modes by using multimodal 
operations across the entire resupply and retrograde operation. 
Given today's advances in transportation support, multimodal 
solutions are not difficult to put in place and the benefits 
far outweigh the cost. The resulting operation will offer 
increased options to science and also dramatically reduce cost.
    The final area is the importance of a capital budget, as 
mentioned by our Chairman Augustine, and multiyear funding for 
long-term logistics infrastructure support. In the report we go 
through how important this would be to improving logistics 
support and reducing cost, but given the timelines and 
constraints we have in the Antarctic, this becomes an even more 
critical overarching issue. I would ask for the Committee's 
support in looking at ways we might do this.
    Again, Chairman Hall and Members of the Committee, I am 
honored to be here today. I was privileged to be part of the 
Blue Ribbon Panel, and I think Norm Augustine did a superb job 
in leading the effort. I request my written testimony be 
submitted for the record, and I look forward to your questions.
    [The prepared statement of General McNabb follows:]
    [GRAPHIC] [TIFF OMITTED] 77036.026
    
    [GRAPHIC] [TIFF OMITTED] 77036.027
    
    [GRAPHIC] [TIFF OMITTED] 77036.028
    
    Chairman Hall. It will be done without objection, and I 
thank you, and sometime I will yield you more time to tell us a 
little more about that National Science Foundation meeting. It 
sounded interesting, which surprises me.
    Now I am going to recognize what the lady that prepared 
this for me said is our final witness. At my age, I don't like 
to introduce anything as final. This is our final witness for 
today, Dr. Zapol, and we will recognize you for five minutes 
and look forward to your testimony.

         STATEMENT OF DR. WARREN M. ZAPOL, M.D., CHAIR,

           COMMITTEE ON FUTURE SCIENCE OPPORTUNITIES

             IN ANTARCTICA AND THE SOUTHERN OCEAN,

                   NATIONAL RESEARCH COUNCIL

    Dr. Zapol. Thank you. Chairman Hall, Ranking Member Johnson 
and Members of the Committee, thank you for inviting me to talk 
today. My name is Warren Zapol. I am an anesthesiologist. I am 
the Emeritus Anesthetist-in-Chief at Massachusetts General 
Hospital and the Jenney Professor of Anesthesia at Harvard. I 
am Director of the MGH Anesthesia Center for Critical Care 
Research. We will get to that later.
    I speak to you in my role as Chair of the 2011 report, 
which I did with 17 diverse and remarkable colleagues, ``Future 
Scientific Opportunities in Antarctica and the Southern Ocean'' 
issued by the NRC of the National Academy, and I am a member of 
the Institute of Medicine. Our National Academy report holds 
special credibility because it was prepared according to 
stringent NAS guidelines for balance, objectivity and peer 
review, and because it was written by people including 
volunteer experts who have done scientific research in the 
Antarctic as well as many with no prior experience in 
Antarctica. We had preeminent scientists from a wide variety of 
disciplines and one Nobel Prize winner.
    Allow me to begin with what is certain to be one of your 
first questions: why is an anesthesiologist talking to you 
about research in Antarctica? In the 1970s, I became fascinated 
by stories of Weddell seals diving to 600 meters depth in the 
Southern Ocean. They could hold their breath for 90 minutes. 
Now, wouldn't it be wonderful if we could help our patients to 
hold their breath for 90 minutes, especially if they had 
pneumonia or heart attacks and things like that. So it was 
obvious as an anesthesiologist I would be interested in this. 
To answer this question, I led a small team of 
multidisciplinary scientists and doctors. We built 
microcomputers before there were microcomputers and we studied 
seals in their national icy environment. Over the course of 
nine summer seasons in Antarctica, a nine-time visitor, we 
learned how specialized storage of oxygen and nitrogen within 
the seals played a critical role and allowing these animals to 
dive for extended periods without suffering the bends or 
hypoxia--low blood oxygen levels--not things you would want. We 
brought that knowledge back and eventually I developed a 
treatment for human hypoxic newborn babies by breathing nitric 
oxide, and our technique is now used to save the lives of about 
15,000 U.S. babies each year.
    So why did I tell you this story? Because it is an 
important example of the power of discovery science. Allowing 
scientists to explore in Antarctica leads to unanticipated 
discoveries, and Antarctica is a place that is ripe for such 
discoveries. There are large parts of the continent that have 
yet to be explored. As a geologist friend of mine likes to say, 
this is a place where you can pick up a rock and be confident 
that you are the first person ever to pick up that rock.
    But discovery is only part of this story. Science in 
Antarctica is also critical for it teaches us about the earth 
and how it is changing. Antarctica and the Southern ocean 
comprise about a third of our planet. They play a key role in 
earth's climate and geography and provide a unique environment 
from which to monitor and understand global change including 
sea-level change. Our NAS report highlighted the need for both 
discovery-driven research and research on global change 
questions across the wide variety of scientific disciplines. 
More details of this are available in the complete report.
    After identifying these important scientific questions, our 
committee made a number of recommendations about the tools and 
logistics we needed to support research on these questions in a 
more effective and more efficient manner. Our group realized 
the need for wider observations underpinned many of our 
important scientific questions and thus our first 
recommendation is that the United States should lead in the 
development of large-scale interdisciplinary observing network 
and support a new generation of earth systems models to 
integrate these observations. Antarctica is almost totally 
unintegrated in all our models, and it is such a big piece of 
the earth. This is viewed as a key element of progress on the 
widest area of scientific issues.
    Other recommendations highlighted the need to continue to 
support basic research, to improve international collaboration 
working with others, to exploit newer technologies, and to 
coordinate our educational activities.
    Finally, our group emphasized the need for the United 
States to maintain a strong logistical support for science in 
the environment of Antarctica, and thus we ask the Blue Ribbon 
Panel to address: one, improve the efficiency of the support 
provided by the contractors and to enhance communications 
between, and the oversight of and the management of contractors 
by the scientific community in the field. Two, increase the 
flexibility and mobility and support system to work on the 
continent and the ocean-wide manner the entire continent, use 
as much of it as possible for as much of the year as possible, 
and to maintain, develop and enhance the logistical assets of 
the United States including the stations, the aircraft, the 
research vessels and icebreakers, of which you have already 
heard a bit of.
    Before our committee wrote its report--because our 
committee wrote its report as input to the Blue Ribbon Panel, 
we did not have the later opportunity to comment as a group on 
that report. As such, I can only offer you my personal views of 
their report. I believe they did a stellar job, and 
particularly they listened to our committee's recommendations 
for more observations and disbursed observations and for 
increased flexibility and the logistical support of science in 
the Antarctic. The only area I feel they could have paid more 
attention to was the need for improved communication and 
interaction among the NSF leadership, the logistical support 
contractor and the scientists in Antarctica. Again, that is my 
personal opinion based on our town-hall-style meetings in 
Antarctica.
    In closing, I emphasize that both of our committees worked 
very hard to identify these recommendations, and I believe that 
by using the recommendations, the United States can maintain 
its leadership in Antarctic science.
    I thank you. I am happy to answer any questions.
    [The prepared statement of Dr. Zapol follows:]
    [GRAPHIC] [TIFF OMITTED] 77036.030
    
    [GRAPHIC] [TIFF OMITTED] 77036.031
    
    [GRAPHIC] [TIFF OMITTED] 77036.032
    
    [GRAPHIC] [TIFF OMITTED] 77036.033
    
    [GRAPHIC] [TIFF OMITTED] 77036.034
    
    [GRAPHIC] [TIFF OMITTED] 77036.035
    
    [GRAPHIC] [TIFF OMITTED] 77036.036
    
    [GRAPHIC] [TIFF OMITTED] 77036.037
    
    [GRAPHIC] [TIFF OMITTED] 77036.038
    
    [GRAPHIC] [TIFF OMITTED] 77036.039
    
    [GRAPHIC] [TIFF OMITTED] 77036.040
    

    Chairman Hall. And I thank you, and I thank this group. I 
thank you very much. I have been up here 32 years and I have 
seen a lot of panels, and I have never seen a better panel than 
this one or more knowledgeable, more capable, more educated, 
and more generous with your time, and I even understood a lot 
of the things you said, Dr. Zapol. And thanks for the way you 
delivered it.
    We are going to have a chance now to ask you all some 
questions. I guess I have the duty and the opportunity to be 
the first, so I will recognize myself for five minutes. You can 
start the clock now.
    Dr. Suresh, while you testified that ``NSF agrees with the 
majority of the Blue Ribbon Panel's recommendations,'' could 
you kind of tell us or please share with us those 
recommendations which NSF disagreed with and maybe why?
    Mr. Suresh. I will be happy to, Mr. Chairman. It is not 
that we disagreed----
    Chairman Hall. You only have five minutes, so you realize 
that.
    Mr. Suresh. It will be less than that actually. I will be 
happy to answer that.
    We set up a Tiger Team immediately after the release of the 
report and we charged the Tiger Team to look into ways in which 
we can address all the concerns of the Blue Ribbon Panel report 
in addition to see if we can go far beyond what was recommended 
in the Blue Ribbon Panel, taking also into account the NRC 
report. So the reason we said ``majority'' is that the task of 
the Tiger Team is not finished yet. It doesn't necessarily mean 
that there are areas that will have any differences of opinion 
with the Blue Ribbon Panel report. We will formally present the 
results of the Tiger Team in about three weeks or so to the 
National Science Board, and as I indicated, we will be happy to 
submit a copy of that report to this Committee.
    The other reason I was careful to mention about the 
recommendations is that not all of the implementation is 
entirely within NSF's prerogative. There are aspects of it that 
we need to work with other agencies and other entities, and 
pending those conversations, it is not possible for me to say 
conclusively. So those are the reasons for it.
    Chairman Hall. I thank you.
    Norm, Dr. Augustine, as you know, and you do know this very 
well because you have evidenced it in all the programs and many 
panels you have been assigned to chair and to be a part of, you 
always look at the money and you are very clear about it in a 
great report that we really needed NASA. You declare in one 
short sentence there the problems that not enough money was 
part of the problem. And I appreciate that the panel took these 
constraints under consideration when you made your major 
recommendations here. But to pay for the improvements and 
upgrades at the Antarctic, the panel essentially recommends a 
formula of funding increases, funding shifts and reinvestment 
of saved cost. I believe your testimony indicates a ``seven-
year financial break-even,'' and this isn't a gotcha question 
at all. I wouldn't dare put a gotcha question on you. When all 
is said and done with additional future savings, kind of tell 
us or reassure us, how do you know the scenario is achievable, 
particularly given that the panel didn't determine what the 
required front-end investment really ought to be. I know you 
had a way of fitting that in and recognizing it and agreeing or 
disagreeing with it and treating it and then going on with your 
report, but I have got almost another minute to hear you tell 
me about that.
    Mr. Augustine. Mr. Chairman, we had the Institute of 
Defense Analyses help us with the cost estimating and we did 
calculate returns on investment and present values of the 
various proposals, most of the proposals we made. We couldn't 
do a detailed analysis. NSF is now doing it. We did identify 
the source of about $150 million, of which 64 would come from 
increased budget support from the Congress and from the White 
House. This should make it possible to carry out the various 
tasks that we have proposed.
    Chairman Hall. I thank you, and I think my time is not 
quite gone. I will close my questions with again thanks to all 
of you, and to you, General McNabb, I thank you for the support 
you and your family gave Secretary of the Army Pete Geren, who 
was a long-time Member of this Congress. I know of your 
friendship and support there and your long-time respect for 
Jerry Costello, who is leaving. We are going to really miss 
him. He is a terrific member. But you all go way, way back, 
longer than I have any more time to let you express because 
that is five, four, three, two, I am out of time.
    All right. At this time I recognize the gentlelady for her 
questions.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    I guess I will put this question out and ask each member to 
comment. I have a major concern about short-term and long-term 
research knowing what our financial restraints are but also 
realizing that to sacrifice all of our research also is to cut 
off our nose to spite our face because it means our future, and 
as much as we have attempted to encourage young people to go 
into these fields, inengineering and scientific research, it is 
beginning to pose questions for them as to whether there is 
going to be a role in the future, not that we have impressed 
enough of them yet to do it but I am concerned about that and I 
would like to hear your comments on it. I realize how 
significant this research is but I also know that we are 
operating under great financial restraints, and if it was left 
up to me, I would not cut this area because I really sincerely 
feel that research is our future, and so I would like to have 
your comments on how you think we can best focus for the short 
term and the long term.
    Mr. Augustine. Absent anyone else, I would be happy to try 
to answer that. Obviously, this is one of these things that you 
can't do all short term and you can't do all long term, it 
takes some balance. The advancements from science have been 
said to drive about 85 percent, up to 85 percent of the growth 
in our economy, and by my own calculations, that suggests that 
about each percentage point you add to the number of scientists 
and engineers in this country creates about a million jobs. So 
there is great leverage to be had here. We are not doing well 
at attracting young people into science and engineering. In 
fact, out of 93 nations, we rank 79th of the fraction of 
bachelor degrees that go to science and engineering.
    But I think what it takes is balance, and in business I 
have learned that at times that you have to cut your overall 
budget, there are some cases that you increase the budget in 
some areas, and science and engineering are one of those areas, 
marketing is probably another, but I think that is true of 
government as well.
    Mr. Suresh. First of all, I want to thank you, Ms. Johnson, 
for your support for science. In terms of short term, we will 
do everything possible with the budget that we have to make 
sure that safety and security for not just NSF colleagues but 
for everybody--contractors, scientists who travel to 
Antarctica--is ensured. So we will do everything possible in 
the present environment.
    Going to the long term, I fully resonate with your concern, 
and I also echo what Mr. Augustine just said. NSF receives 
approximately $7 billion a year from U.S. taxpayers to support 
science. Last year we supported 300,000 individuals in over 
2,000 institutions in the country. I would argue based on a lot 
of evidence that the return to the U.S. Treasury based on the 
annual $7 billion investment is many, many, many times the $7 
billion, and that is a compelling enough reason in addition to 
the jobs and everything else to continue to support science.
    I am very concerned about our ability to compete with the 
rising competition from all over the world for not only science 
and engineering research but also for human talent; our ability 
to attract and retain talent in science, both from domestic 
talent and talent from all over the world which this country 
has relied on very heavily, and if we lose that, I think it 
will be major competition, so I very much appreciate your 
concerns.
    General McNabb. Yes, ma'am. I would say that one of the 
things that we really looked hard at is the productivity of 
your scientists and that community, and one of the things you 
want to do is, you can increase their productivity a lot if you 
give them the right facilities and logistics support. Right now 
I would say that if you go down and you visit the Antarctica, 
you will see that it is not efficient for them and it just--and 
it begs for the fact that if you can really help that, if you 
can really make sure the have the proper logistics 
infrastructure underneath them, it will be amazing how much 
more their time is worth, not only to the NSF and to the 
science community but really to the country.
    One of the big things in this country is transportation 
infrastructure. It is what fuels our productivity, and if you 
do it right, you compete very well. Well, I think we are 
competing for those young people, and when they go down and do 
a tour down the Antarctic, you can just imagine if they go down 
there and give it some of the things that we saw. If you give 
them world-class stuff, they will give you world-class results. 
The problem is, it is hard to get ahead of that, especially on 
logistics. I was the J-4 for the joint staff looking at 
logistics. The one place everybody seems to think they can 
always take money is logistics, and normally, logistics 
infrastructure and all you have to do is look at what happens 
when a Sandy or something comes through and you go boy, I sure 
wish we had buried all those electrical lines. Those are things 
that we can get ahead of now and really do pay back some 
dividends, and so that is one of the things that we really 
focused on in the Blue Ribbon Panel with the understanding that 
we are trying to increase science and reduce cost.
    Dr. Zapol. Ranking Member Johnson, two points from an 
Antarctican view. First, Antarctica is extraordinarily 
attractive to young people. It really turns on high school 
classes. We surveyed in our report and we asked about--we asked 
do you have enough young people to do your research or enough 
Americans wanting to go to Antarctica and do research? We got a 
resounding reply that everybody wants to go, everybody is 
interested, there is no shortage. So this isn't like NASA. This 
is an extraordinarily attractive place where young people can 
really get the idea of science, how to do it and want to do it. 
So I think Antarctica is really not suffering that way.
    And I think the second thing is, the science community 
worries about the price of logistics. We worry about the price 
of the Pole and the Pole Station and whether it was worthwhile, 
all of it, and we worry about the logistics taking over the 
minimal science budget. It is only 20 percent. If you shrink 
it, a lot of good grants won't get funded. I know more about 
NIH where the funding rates get down to ten percent and eight 
percent and you lose competitive--you just start losing people 
at that point. You can't shrink the science too much, and there 
is an anxiety. I speak for the community from what people have 
told me. They worry that logistics will get 100 percent of it 
and there won't be any science. So those are the worries.
    Ms. Johnson. Thank you very much for your time. My time is 
expired.
    Chairman Hall. Thank you. And when you talk about under 
budget and you look at NASA back through the years, and if we 
had just done a little different to what Norm had suggested and 
others for just even close to one percent of the overall 
budget, we would still have access to space that we must have, 
must get back.
    At this time I recognize the gentleman from Texas, Mr. 
Smith, for five minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Dr. Zapol, let me address a couple of questions to you. 
First of all, you have great knowledge both about Antarctica 
and the Arctic Circle, and I am wondering if that makes you a 
bipolar expert.
    Dr. Zapol. It does.
    Mr. Smith. Without question. I also want to thank you for 
the discovery you made ten years ago and the research you did 
that results in the saving of 15,000 babies' lives every year. 
That is just incredible and a real credit to you for doing so.
    My question is this, and I appreciate what you said about 
the Antarctic being exciting to young people. I understand what 
you said about the sense of exploration when you are the first 
person to pick up a rock, and we might say that that holds true 
not only for the surface of the ice in Antarctica but also 
picking up a rock on the moon or an asteroid or on Mars. But my 
question is this. Is it possible that some of the research done 
in Antarctica could be done elsewhere for less cost? And more 
specifically, for example, some of the research you did on 
seals that you mentioned in your opening statement, could that 
have been done elsewhere?
    Dr. Zapol. Well, let me approach it from the seal point of 
view. I couldn't have at that time. I am not sure you could do 
it today. The ice, the fast ice of Antarctica, by freezing and 
freezing fast to the shore creates a platform, and it allowed 
us to go 25 miles offshore and drill a hole through the ice. 
Then when you released a wild seal there, we knew it couldn't 
breathe anywhere else. So it had a computer pack and things on 
its back and it had to come back to our hole. I honestly don't 
think if you did this on a shore where they could take off, you 
would probably never find them again or you would spend a lot 
of time tracking them down, and we did that in 1984 and so 
technology was in an earlier time. You might be able to today 
but I doubt it. I think that sort of research with captive hole 
diving can only be done there.
    Mr. Smith. You might be able to replicate that today but 
you would know more about that than I.
    Let me then ask all the other panelists this question, and 
it is a little bit of a follow-up to what you have been asked 
already. The cost of research and the logistical support in 
Antarctica now is about a third of a billion dollars. Is it not 
possible that not only could some of that research be done 
elsewhere but is it not possible that some of the research 
might get done anyway by, say, the private sector, and is it 
possible that some of the research could be done elsewhere 
other than the Antarctic at that cost? And Mr. Augustine, we 
will start with you.
    Mr. Augustine. All right. Thank you. I think when you are 
dealing with basic research of the type we are talking about, 
it is highly unlikely that the private sector would support it. 
The reason is that the results are too uncertain, too long 
term, too costly.
    Mr. Smith. But the private sector would certainly support 
saving 15,000 babies a year.
    Mr. Augustine. The problem is, if you go to a corporation 
and say we want you to study Weddell seals, they probably would 
say no, and another former member of your Committee told me of 
a project your Committee supported to study butterfly wings 
that turned out to produce one of the ingredients that is used 
in treating cancer, and those things just in industry frankly 
were too shortsighted by pressures of the marketplace that 
companies just won't support it. A classic example is the great 
Bell Labs that are basically shutting down.
    Mr. Smith. There may be more potential than we think right 
now. I think about commercialization of space, which was just a 
few years ago thought not to be practical, and look what is 
happening there as well. But thank you for your answer.
    Dr. Suresh, good to see you again.
    Mr. Suresh. Good to see you, sir. Let me first address your 
earlier question about why Antarctica, can this be done 
somewhere else, because that is related to your second 
question. In my opening statement, I highlighted three 
discoveries. Those three discoveries could not have been done 
anywhere else. One of them has had a huge impact in 
addressing--because Antarctica is sort of a place where you 
identify things that you cannot see anywhere else, even if you 
just take Arctic versus Antarctic, the Arctic is much more 
heavily populated and it is not nearly as pristine as 
Antarctica. So the scientific discoveries that we make in 
Antarctica that have implications for so many different fields, 
we could not do anywhere else. So that is the first point I 
would like to make.
    Related to that, I think given that and given the fact that 
every branch of science and engineering that NSF supports, 
which is pretty much all fields of science and engineering, 
benefits from the research in Antarctica, and given the fact 
that 31 nations have now recognized the importance of this and 
are increasingly investing in it, and the United States has 
historically had a leadership role, I would argue very strongly 
that now is not the time to cut back on the investment.
    Mr. Smith. Mr. Chairman, I appreciate those answers. My 
time is up.
    General McNabb, I assume you would agree with the responses 
that we just received? Okay.
    Thank you, Mr. Chairman.
    Chairman Hall. And I thank you.
    The chair now recognizes the gentleman from California, Mr. 
McNerney, for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman. I do want to echo 
your comments on the panel's hard work, and I want to thank you 
all for coming and getting engaged in this issue. As Dr. Zapol 
indicated, when I was in high school I wanted nothing more than 
to go to Antarctica. So one point of validation for that.
    There was some--some of your testimony is quite concerning, 
almost alarming. Mr. Augustine, you sort of were indicating the 
dilapidation of many of the facilities there, and then Dr. 
Suresh, I think, mentioned operating under multiple single 
points of failure. What is the worst-case scenario we are 
talking about? Are people's lives at risk that work in 
Antarctica?
    Mr. Suresh. So first of all, as pretty much every panel 
member suggested here, the National Science Foundation in 
partnership with other agencies for more than half a century 
has had a phenomenal record of safety in running the U.S. 
Antarctic Program, and I want to emphasize that. So I think the 
spirit of the recommendations, and my distinguished colleagues 
can speak for the report, which I cannot speak for, the spirit 
of the recommendations is that there is a potential if we don't 
address and improve the logistics. For example, having access 
to Antarctica to supply fuel is so critical, so if you don't 
have the right icebreaking capabilities, that will potentially 
lead to severe loss of investments for the future. Not having a 
capital budget is one of the biggest recommendations. So it is 
in that spirit, some of the recommendations like the dishwasher 
in McMurdo, which feeds a number of people, we take it very 
seriously, and it is not that--if you look at it historically, 
we will look at each of these recommendations and as quickly as 
possible try to address to see if we can improve the situation.
    Mr. McNerney. Well, one of the things that keeps coming up 
is the small fraction of money that goes to science as opposed 
to logistics. Is part of that because of the dilapidated state 
of logistics? If the logistics were improved, could more money 
go to science, to real science?
    Mr. Augustine. I think the answer to that is without 
question that could be the case. If you took the one 
recommendation we made that produces the highest savings after 
the initial investment, in the steady state, it alone could add 
60 typical grants to the science effort. So there is a huge 
opportunity here.
    Mr. McNerney. Okay. Let us talk a little bit about the 
foreign presence or the risk to American leadership in the 
Antarctic. We clearly have--the United States clearly has the 
largest presence in Antarctic. What would be the risk if other 
countries were to come in and co-dominate that presence? 
General McNabb?
    General McNabb. I think our leadership on the Antarctic 
along with all the other nations that have signed a treaty has 
really been superb, and the ability to preserve this place on 
our earth in a time when science is going to be so important is 
going to be critical. I am not sure that if we were not there 
and taking the leadership role, I am not sure how fast, given 
what you see happen around the world and really the 
competitive--you know, the competitive--competition for 
resources, that you would end up seeing the Antarctica be what 
it needs to be for the world, and that would be my take.
    Mr. McNerney. Anyone else want to comment on that?
    Mr. Augustine. I would welcome the opportunity. I think if 
you consider both the missions in Antarctica, with regard to 
the political implications, there are overlapping claims that 
you are well aware of that have been made by seven different 
countries, and there is, I think, good evidence that the United 
States presence there, particularly the presence at the Pole, 
has led to a very peaceful Antarctica, and as there is more and 
more exploration in that area, that will become more of a 
challenge, I believe.
    With regard to science, the United States has given up its 
lead in things like particle physics that it has had for years. 
It would be a shame to see us give up our lead in another area. 
I also find a certain irony that this Committee probably has 
recognized it. Today we can't reach our--I say ``our,'' the 
International Space Station of which we pay for a major part, 
without flying on Russian launch vehicles. Similarly, we can't 
get to Antarctica without using today Russian icebreakers, and 
that is a trend that probably is not something that a great 
nation would want to have.
    Mr. McNerney. Thank you.
    Mr. Chairman, I concede my time.
    Chairman Hall. And I thank you.
    I recognize Mr. Brooks, the gentleman from Alabama.
    Mr. Brooks. Thank you, Mr. Chairman. I could not help but 
note the correlation between us using Russian icebreakers and 
manned spaceflight vehicles. Hopefully, we will be able to 
restore America's preeminence in both fields in our near 
future.
    I have got a two-part question addressed to the whole 
panel. By the very nature of the Antarctic treaty, 
international cooperation is essential to success in 
Antarctica. With specific regard to logistics, that being such 
a high-cost area, how are we currently sharing logistical 
burdens, with whom and at what savings to the United States 
taxpayer, and then the more important second part of the 
question, how can we expand logistics cooperation with other 
nations and at what projected or potential savings?
    Mr. Augustine. With the Committee's permission, I will 
start out and try to be brief. Today there is a lot of sharing, 
particularly with New Zealand, somewhat with Australia and with 
others. New Zealand recently built three wind-power facilities 
at McMurdo, which provide a substantial part of the power to 
the U.S. station there as well.
    In terms of the future, very briefly, one of the main 
opportunities would be on the Antarctic peninsula where Palmer 
Station is located. There are many stations of other countries 
in that same area and one could imagine instead of each nation 
providing its own logistics, that there could be basically a 
logistics Walmart, if you will, on a ship that makes a route 
around the Antarctic peninsula and has a stockroom that various 
countries could buy their parts from. So I think there is 
enormous opportunity.
    Mr. Suresh. Congressman Brooks, I will be very brief. We 
have had very longstanding collaborations with a number of 
countries from the U.K. to New Zealand to Chile and to many 
others. Recently, some countries have expanded their activities 
in Antarctica. For example, South Korea is in the process of 
building a new station not too far from McMurdo, just a few 
hundreds kilometers from McMurdo. They have also built a new 
icebreaker, and we have been engaged--the head of our polar 
program has been engaged in discussions with the president of 
the South Korean Polar Program on ways in which we can 
collaborate including in the area of infrastructure and 
logistics.
    General McNabb. Congressman Brooks, I would say that one of 
the things that we really bring is our transportation 
capability to the team, if you will. Because of the nature of 
how our DOD works, we bring some capabilities that nobody else 
has. I can use the LC-130 ski bird as a great example. You 
know, other nations will have smaller airplanes that are 
equipped with skis but that LC-130 is kind of unique. One of 
the things we want to do is to make sure that we are freeing up 
assets for better support of science, and one of the places 
where we talk about that is a better mix of how we use our C-
17s and our C-130s as an example. If we use our C-17s more to 
do more normal-type movement, we can free up LC-130s to do a 
better support for the field operations that are out there.
    Mr. Brooks. But right now I am focused just on 
international cooperative measures, our own logistical issues 
internally.
    General McNabb. And in this case, where we joined with some 
other nations was the AGAP project out in west Antarctica which 
where we provided really the LC-130 and C-17 air drop. Other 
countries, China provided traverse operations and other 
countries that did their part with little airplanes and so 
forth.
    Mr. Brooks. I am going to have to go to my next question. I 
apologize, Doctor, but you can jump on this first if you so 
choose. Is it the role of Congress or the White House and the 
NSF to facilitate these kinds of international cooperative 
measures to help lower our logistical costs, and if it is 
Congress, what can Congress do to facilitate that cooperation? 
Anybody can answer.
    Mr. Augustine. I will step into that. I think it is the 
responsibility of NSF. It is the responsibility that was 
delegated to NSF some 30 years ago but obviously it takes the 
support of the Congress, the White House.
    Mr. Brooks. What, specifically, should Congress do to 
facilitate cooperation internationally on logistical costs?
    Mr. Augustine. I think it is mainly a matter of 
encouragement. I should say that the State Department takes the 
lead, obviously, in these international contacts.
    Mr. Brooks. But we give encouragement to cut down costs so 
is there anything else we need to do?
    Mr. Augustine. The only thing I could think of is that some 
of the--well, it is not the Congress's role. Some of the early 
presidential decisions needed to be updated but that is--I 
think the Congress is doing what it can do. I think it is 
really NSF, the State Department, they probably will be asking 
for funding. That will be obviously a Congressional issue.
    Mr. Suresh. I would like to add to that. I think, you know, 
NSF has been appointed as the point agency to work with our 
sister agencies and coordinating, and we work very closely with 
the State Department and the White House and other agencies as 
well. I think Congress can help us with--I mean, we keep 
Congress involved frequently and continuously about what we do. 
Both moral support and support for infrastructure and funding 
for the science in Antarctica will go a long way.
    Dr. Zapol. A bipolar comment. The Arctic has much more 
problem, and I am a commissioner, an Arctic research 
commissioner, and they are much more difficult. This is 
actually a rather easier place to work. The Antarctic treaty 
works. I have had five or six. In my team of eight, I had a New 
Zealander, an Australian, a German, a Canadian and a Dane. It 
is very easy to mix in our teams, and I think the scientists 
are way ahead there. It has been slow cooperation in a strange 
form. It is not a--it should go better, warmer. I think New 
Zealand in particular so close to McMurdo, so involved. I think 
we need to do more of that.
    Mr. Brooks. Thank you, Mr. Chairman, for allowing the 
witnesses additional time to answer my question. I yield--well, 
I would yield but I have none.
    Chairman Hall. If you have some, I will accept the yield. 
If you don't, I will accept it also.
    Ms. Bonamici from Oregon, I recognize you for five minutes 
or more.
    Ms. Bonamici. Thank you very much, Chairman Hall and 
Ranking Member Johnson, for calling this hearing, and to the 
panel, you have done an excellent job of effectively 
communicating the value of research in Antarctica from the 
discovery of the ozone hole to saving thousands of babies a 
year. I also want to point out, Dr. Zapol, in your testimony 
where you talk about monitoring space weather and how space 
weather could disrupt the proper functioning of communication 
satellites, GPS systems, electrical power distribution systems 
and how the space weather is better viewed from the South Pole 
than the shifting seas of the North Pole. I just wanted to 
point out, I found that extremely compelling as well.
    So scientific research and technological innovation are 
very thriving in the district I am proud to represent. My 
constituents are keenly aware of the impact of NSF, fundamental 
research dollars, and I have, for example, Oregon State 
University, Portland State University, my alma mater, the 
University of Oregon, all have completed research projects 
through the U.S. Antarctic Program. In fact, the acting 
director of the Office of Polar Programs at the NSF was 
previously with Oregon State University.
    Considering the role of university-based polar research in 
Oregon and nationally, I want you to look ahead to the 
impending across-the-board cuts that would be brought on by the 
sequester, and I have a question about the funding for science 
versus the funding for logistics because Mr. Augustine, you 
mentioned that the cruel arithmetic of conducting research in 
the climate presented by the polar region, meaning that if 
logistics costs rise by 13 percent, the science would be 
halved. So with that in mind, will you please comment on the 
impact that the proposed cuts to NSF might have on the future 
of the Antarctic program considering especially the multiplier 
effect that Mr. Augustine talked about. Would the sequester 
effectively end the science portion of the program, and perhaps 
Dr. Suresh, you could begin?
    Mr. Suresh. I would be happy to address that. So if the 
worst-case scenario that is being proposed materializes, the 
Office of Management and Budget predicts that NSF's budget 
along with that of our sister agencies, science agencies, will 
suffer about 8.2 percent. So that--if it is across the board, 
that will be reflected across NSF. That would mean 1,000 fewer 
grants will be awarded. We typically give about 13,000 per 
year. About 1,000 fewer grants per year, thousands of 
scientists will be affected, and it goes back to an earlier 
question by the Ranking Member. It will also discourage a lot 
of very young people from going into science. This is the 
future of American leadership in science and engineering and 
therefore this is the future of our economic leadership and 
national security and other issues, and that is the biggest 
concern. That is our projection of the worst-case scenario of 
sequestration.
    Ms. Bonamici. Thank you. And I know you have already--did 
you want to talk about that too, Mr. Augustine?
    Mr. Augustine. I would welcome the chance, just briefly, if 
I might. If this eight percent cut that is likely to take place 
if sequestration occurs, it would have an impact primarily on 
the science and not the logistics. It would be 
disproportionate, and the reason for that is that you still 
have to have an icebreaker. If you have one scientist, you 
still have to heat the buildings. If you have one scientist, 
then you have provide a fuel tanker, and so on. So I can 
imagine the impact on science, and I have never calculated the 
number, but it would be many times the eight percent.
    Ms. Bonamici. Thank you. And with the brief time remaining, 
you did an excellent job of conveying to this committee the 
importance of the research that you do there. What efforts are 
you making to convey that to the public?
    Mr. Suresh. We have a lot of activities in Antarctica from 
conveying a lot of educational activities which reach not just 
researchers and undergraduate students but also schoolchildren. 
We even have an artist-in-residence program to convey the 
unique aspects of the excitement of Antarctica to the general 
public, and there are many, many ways in which this is 
communicated through videos to supporting science programs to 
communicating to school districts, et cetera, et cetera.
    Ms. Bonamici. Thank you. Anyone else want to weigh in on 
efforts?
    Thank you very much, and I yield back. Thank you, Mr. 
Chairman.
    Chairman Hall. The gentlelady yields back. I think that we 
have no other witnesses, and I want to thank all of you for 
your very valuable testimony and the Members for their 
questions. The Members of the Committee might have additional 
questions they want to submit to you, and if they do, I hope 
you will respond to those in writing to them. The record will 
remain open for two weeks for additional comments from the 
Members. And with once again just heartfelt thanks to all four 
of you and to those who attended and those who work with you 
and background information they sent to us, we thank all of you 
for it, and we are adjourned.
    [Whereupon, at 11:19 a.m., the Committee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Mr. Norman R. Augustine
[GRAPHIC] [TIFF OMITTED] 77036.041

[GRAPHIC] [TIFF OMITTED] 77036.042

Responses by The Honorable Subra Suresh
[GRAPHIC] [TIFF OMITTED] 77036.043

[GRAPHIC] [TIFF OMITTED] 77036.044

[GRAPHIC] [TIFF OMITTED] 77036.045

Responses by General Duncan J. McNabb, USAF (Ret)
[GRAPHIC] [TIFF OMITTED] 77036.047

[GRAPHIC] [TIFF OMITTED] 77036.048

Responses by Dr. Warren M. Zapol, M.D.
[GRAPHIC] [TIFF OMITTED] 77036.050

[GRAPHIC] [TIFF OMITTED] 77036.051

                                 <all>

</pre></body></html>
